Report No. D-2007-033     December 14, 2006




  The Requirements Process for the Army
    Multi-Mission Radar and the Marine
      Corps Multi-Role Radar System
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AMA                   Analysis of Material Approaches
AoA                   Analysis of Alternatives
DCD                   Directorate of Combat Development
FAA                   Functional Area Analysis
FNA                   Functional Needs Analysis
FSA                   Functional Solution Analysis
G/ATOR                Ground/Air Task Oriented Radar
GWLR                  Ground Weapon Locator Radar
ICD                   Initial Capabilities Document
JCIDS                 Joint Capabilities Integration Development System
JROC                  Joint Requirements Oversight Council
MMR                   Multi-Mission Radar
MNS                   Mission Need Statement
MRRS                  Multi-Role Radar System
PIA                   Post Independent Analysis
               Department of Defense Office of Inspector General
Report No. D-2007-033                                                  December 14, 2006
   (Project No. D2006-D000AE-0150.000)

      The Requirements Process for the Army Multi-Mission Radar
            and the Marine Corps Multi-Role Radar System

                                 Executive Summary

Why You Should Read This Report. This report discusses the processes the Army and
the Marine Corps used to generate requirements for the Multi-Mission Radar and the
Multi-Role Radar System.

Background. We performed this audit in response to allegations made to the DoD
Hotline. The allegations concerned the processes the Army and the Marine Corps used to
generate requirements for the Multi-Mission Radar and the Multi-Role Radar System,
which are both multiple-mission radar systems. This report addresses the four allegations
made concerning:

       •   defining threat requirements and the urgent need for the radars;

       •   performing an adequate analysis of alternatives for the radars, to include an
           assessment of current radar systems, upgrades to current radar systems, and
           planned radar systems of the other Services;

       •   considering combat effectiveness and suitability factors when defining radar
           requirements; and

       •   threatening improper personnel actions against staff wanting to discuss
           alternative means of meeting radar requirements.

Results. We did not substantiate the four DoD Hotline allegations concerning the
processes the Army and the Marine Corps used to support starting acquisitions of the
Multi-Mission Radar and the Multi-Role Radar System. Since the DoD Hotline received
the allegations in September 2004, the Army and the Marine Corps have continued to
adhere to processes prescribed in the Joint Capabilities Integration Development System
to define requirements for the Army Multi-Mission Radar and the Marine Corps Multi-
Role Radar System. The Army Directorate of Combat Development had not developed
an analysis of alternatives because the Multi-Mission Radar was in the pre-concept
refinement phase of the acquisition process and early in the Joint Capabilities Integration
Development System process. The Marine Corps performed an adequate analysis of
alternatives to support the Multi-Role Radar System as part of the Ground/Air Task
Oriented Radar program. Both the Army and the Marine Corps also adequately
considered combat effectiveness and suitability in defining capability requirements for
the radar systems. Additionally, we found no evidence that senior management had
threatened the employees developing requirements for the Multi-Mission Radar and the
Multi-Role Radar System. To avoid duplication of acquisition efforts, the Acquisition
Executives for the Army and the Navy and members of the Army-Marine Corps Board
have discussed the potential for a joint acquisition program to satisfy multiple-mission
radar requirements for both Services. While the Army and the Marine Corps do plan to
further consider a joint acquisition effort, key differences in performance parameters for
radar range and transportability had so far prevented them from forming a joint
acquisition program.

Management Comments. We provided a draft of this report on October 19, 2006. No
written response to this report was required. Therefore, we are publishing this report in
final form.




                                             ii
Table of Contents

Executive Summary                                                   i

Background                                                          1

Objective                                                           3

Review of Internal Controls                                         3

Finding
     Allegations Concerning the Army and Marine Corps Developing
       Requirements for Separate Multiple-Mission Radars           4


Appendixes
     A. Scope and Methodology                                      15
     B. DoD Requirements Process for Weapon Systems                16
     C. Report Distribution                                        19
Background
    We performed this audit in response to allegations made to the DoD Hotline. The
    allegations concerned the processes the Army and the Marine Corps used to
    generate requirements for the Multi-Mission Radar (MMR) and the Multi-Role
    Radar System (MRRS), which are both multiple-mission radar systems. This
    report addresses the four allegations made concerning:

           •   defining threat requirements and the urgent need for the radars;

           •   performing an adequate analysis of alternatives (AoA) for the radars,
               to include an assessment of current radar systems, upgrades to current
               radar systems, and planned radar systems of the other Services;

           •   considering combat effectiveness and suitability factors when defining
               radar requirements; and

           •   threatening improper personnel actions against staff wanting to discuss
               alternative means of meeting radar requirements.

    DoD Process for Determining Weapon System Requirements. Chairman of
    the Joint Chiefs of Staff Instruction 3170.01E, “Joint Capabilities Integration and
    Development System,” May 11, 2005, defines the process DoD uses to identify,
    assess, and prioritize joint military capability needs. The Joint Capabilities
    Integration and Development System (JCIDS) process begins with the top-down
    capabilities identification methodology, which occurs before the start of the
    Defense acquisition management process. The top-down capabilities
    identification methodology is a capabilities-based assessment composed of a
    structured, four-step process that draws on the expertise of all Government
    agencies to identify improvements to current and new warfighting capabilities.
    The four-step process allows the Chairman of the Joint Chiefs of Staff, with the
    assistance of the Joint Requirements Oversight Council (JROC), to assess and
    provide advice regarding warfighter capability needs for potential Defense
    acquisition programs. In addition, the top-down capabilities identification
    methodology and subsequent JCIDS processes were established to prevent
    redundant acquisition efforts that do not improve the warfighters’ capabilities.
    Appendix B provides details on how DoD uses the top-down capabilities
    identification methodology to support starting the acquisition management
    process.

    Multiple-Mission Radars. The Army and the Marine Corps are developing
    ground-based radars capable of performing multiple missions, either
    simultaneously or separately, without requiring hardware additions or physical
    reconfiguration. These missions include air surveillance, air defense, counter-
    battery, and air traffic control. The radars in the air surveillance mission identify
    and track cruise missiles, fixed- and rotary-wing aircraft, and unmanned aerial
    vehicles. The radars in the air defense mission provide other Service weapon
    systems with radar data needed to shoot down enemy cruise missiles and air-
    breathing threats. The radars in the counter-battery mission identify and track
    enemy rockets, artillery, and mortars for unit use in determining firing positions

                                          1
and impact areas. The radars in the air traffic control mission track aircraft to
allow air comptrollers to prevent collisions and to ensure orderly and expeditious
flow of air traffic.

Army Multi-Mission Radar. The MMR capability is still in the JCIDS process
and the Army is in the process of completing the top-down capabilities
identification methodology. The JCIDS process is preliminary to the Army
designating the MMR as an acquisition program and assigning it an acquisition
category. As envisioned, the MMR will provide multifunctional radar
information to support air surveillance, air defense, counter-battery, and air traffic
control missions. Additionally, the MMR will support intelligence requirements
through the development of a common operational picture for the Future Combat
Force. The Army Directorate of Combat Development (DCD), the sponsor office
responsible for the preparation of the documents required in the JCIDS process,
had completed the first JCIDS document, the Functional Area Analysis (FAA), on
March 6, 2006. Additionally, DCD had drafted the three documents that follow
the FAA in the JCIDS process: the Functional Needs Analysis (FNA), the
Functional Solution Analysis (FSA), and the Initial Capabilities Document (ICD).
Appendix B provides details on the purpose and contents of these JCIDS
documents.

Marine Corps Multi-Role Radar System. On July 20, 2004, the JROC
approved the operational requirements document for the MRRS. The Marine
Corps was developing the MRRS as part of the Ground/Air Task Oriented Radar
(G/ATOR) program, which is a single material solution to meet MRRS and
Ground Weapon Locator Radar (GWLR) requirements. The Marine Corps is
developing the G/ATOR program as an evolutionary acquisition with four
incremental development and production blocks, referred to as Increments I
through IV. Each increment will have separate acquisition milestone decisions.
Increment I will support two missions: air surveillance and air defense.
Increment II will address the counter-battery mission. Increment III will
incorporate tactical enhancements of the air surveillance and air defense missions.
Increment IV will address support of the air traffic control mission.

         Multi-Role Radar System Missions. The MRRS, Increment I and
Increment IV of the G/ATOR program, will meet the Marine Corps requirements
for a lightweight, expeditionary, three-dimensional radar capable of performing
the air defense, air surveillance, and air traffic control missions. On August 26,
2005, the Assistant Secretary of the Navy (Research, Development, and
Acquisition) approved the program start for Increment I of the G/ATOR program
and entry in the system development and demonstration phase of the acquisition
process.

      Ground Weapon Locator Radar Mission. The GWLR will meet the
Marine Corps requirements for the counter-battery mission. On June 1, 2005, the
JROC approved the “Ground Weapons Locator Radar Capabilities Development
Document, Annex A to the Multi-Role Radar System Operational Requirements
Document,” including the validation of its key performance parameters. The
GWLR is Increment II of the G/ATOR program. The Marine Corps plans to start
Increment II in FY 2009.


                                      2
Objective
     Our overall audit objective was to evaluate allegations from the Defense Hotline
     regarding the adequacy of the processes the Army and the Marine Corps were
     using to support starting acquisition of the Army MMR and the Marine Corps
     MRRS programs. Specifically, we evaluated whether the Army and the Marine
     Corps adequately defined threat requirements, analyzed and considered other
     alternatives, and supported the urgency for developing the radar systems in the
     near term. See Appendix A for a discussion of the scope and methodology.


Review of Internal Controls
     Army and Marine Corps processes used to generate requirements for the MMR
     and the MRRS included adequate internal controls as they applied to the audit
     objectives.




                                         3
            Allegations Concerning the Army and
            Marine Corps Developing Requirements
            for Separate Multiple-Mission Radars
            We did not substantiate the four DoD Hotline allegations concerning the
            processes the Army and the Marine Corps used to support starting
            acquisitions of the MMR and MRRS. Since the DoD Hotline received the
            allegations in September 2004, the Army and the Marine Corps have
            continued to adhere to processes prescribed in the Joint Capabilities
            Integration Development System to define requirements for the Army
            MMR and the Marine Corps MRRS. The Army DCD had not developed
            an AoA because the MMR was in the pre-concept refinement phase of the
            acquisition process and early in the JCIDS process. The Marine Corps
            performed an adequate AoA to support the MRRS as part of the G/ATOR
            Program. Both the Army and the Marine Corps also adequately
            considered combat effectiveness and suitability in defining capability
            requirements for the radar systems. Additionally, we found no evidence
            that senior management had threatened the employees developing
            requirements for the MMR and the MRRS. To avoid duplication of
            acquisition efforts, the Acquisition Executives for the Army and the Navy
            and members of the Army-Marine Corps Board have discussed the
            potential for a joint acquisition program to satisfy multiple-mission radar
            requirements for both Services. While the Army and the Marine Corps do
            plan to further consider a joint acquisition effort, key differences in
            performance parameters for radar range and transportability had so far
            prevented them from forming a joint acquisition program.


Allegations
     The complainant made the following four allegations concerning the processes
     that the Army and the Marine Corps used to support starting acquisitions of the
     MMR and the MRRS.

            •   The Army and the Marine Corps did not adequately define threat
                requirements and the urgent need for the new radar systems.

            •   The Army and the Marine Corps did not perform an adequate AoA for
                the radars, including an assessment of current radar systems, upgrades
                to current radar systems, and planned radar systems of the other
                Service that contained nearly identical performance requirements.




                                         4
           •   The Army and the Marine Corps did not adequately consider combat
               effectiveness and suitability factors for new radar systems.
               Specifically, the Services required the MMR and the MRRS to have
               liquid cooling, making them susceptible to failures from minor combat
               damage.

           •   Senior Army and Marine Corps personnel threatened retaliation,
               reprimand, and loss of promotion opportunity for staff wanting to
               discuss alternative means for meeting radar requirements.


Threat Requirements and Urgent Need
    Allegation 1. The complainant alleged that the Army and the Marine Corps did
    not adequately define threat requirements and the urgent need for the new radar
    systems.

    Audit Results. We did not substantiate the allegation. The Army and the Marine
    Corps implemented processes to adequately define threat requirements and the
    urgent need for the new radar systems.

    Army Threat Requirements. Because the Army just started the JCIDS process
    for the MMR, completion of a system threat assessment was not yet required.
    However, the Army DCD had begun to define threat requirements for the MMR.
    Specifically, the draft FNA identified radar capability gaps against current and
    future threats. In addition, the Defense Intelligence Agency prepared an “Initial
    Threat Warning Assessment,” December 1, 2005, for the MMR that identified
    projected adversarial threat capabilities that would affect the MMR design and
    implementation.

             Draft Functional Needs Analysis. In the draft FNA, the Army DCD
    stated that the MMR will be required to track a large number of threats to avoid
    fratricide and that the inherent flexibility of the MMR was a critical capability the
    Army needed to offset threats. While the draft FNA primarily discussed threats in
    a general manner, it did discuss five critical gaps. Specifically, existing Army
    radars:

           •   lacked multi-mission functionality and the capacity to rapidly switch
               between mission modes;

           •   were unable to detect, track, and shoot down all threats at extended
               ranges within 360 degrees;

           •   lacked the capability to detect and precisely locate the full spectrum of
               indirect fire locations at extended ranges for the counter-battery
               mission;

           •   were incapable of accurately predicting the impact points for the
               counter-battery mission; and


                                          5
                    •    were incapable of classification, characterization, and positive
                         identification of aerial objects at high levels of accuracy and
                         assurance.

                   Initial Threat Warning Assessment. The Army did request the Defense
           Intelligence Agency to prepare an Initial Threat Warning Assessment for the
           MMR as required in Chairman of the Joint Chiefs of Staff Manual 3170.01B,
           “Operation of the Joint Capabilities Integration and Development System,”
           May 11, 2005. In the Initial Threat Warning Assessment, the Defense
           Intelligence Agency identified adversarial threats that could affect a multiple-
           mission radar capability. The Initial Threat Warning Assessment also identified
           actions that adversaries could use to degrade or disrupt the operations, such as
           threats to radars or radar platforms and threats to the associated communications,
           command, control, and computer networks. Threats identified included rocket-
           propelled grenade launchers, anti-material agents, unmanned aerial vehicles, and
           lasers.

           Army Urgent Need. The Army did adequately define the urgent need for the
           MMR. The draft FNA identified four current and critical gaps in detecting and
           locating existing medium caliber artillery. Additionally, the “Future Combat
           Systems1 Operational Requirements Document,” January 31, 2005, which the
           JROC validated, stated that the MMR should be capable of simultaneously
           performing the air surveillance, air defense, counter-battery, and air traffic control
           missions for the Brigade Combat Team2 between 2017 and 2020. Further, the
           Deputy Director for DCD stated that developing a multiple-mission radar would
           decrease existing operation and support costs because a single radar rather than
           multiple radars would lower logistical support costs and maintenance
           requirements.

           Marine Corps Threat Requirements. Similarly, the Marine Corps adequately
           defined threat requirements for its new multi-role radar system. In the JROC-
           approved operational requirements document for the MRRS dated July 20, 2004,
           the Marine Corps identified the key performance parameters for the MRRS and
           adequately defined the current and near future threats as established in the Marine
           Corps System Threat Assessment Report. It also requires the MRRS to be a
           lightweight, expeditionary, three-dimensional radar capable of detecting cruise
           missiles, fixed- and rotary-wing aircraft, and unmanned aerial vehicles.

           In the “Air Combat Threat Environment Description [the Threat Environment
           Description],” February 2002, the National Air Intelligence Center presents a
           description of the threat environment that could confront U.S. Air Combat
           Command assets. Specifically, the Threat Environment Description discussed the
           current-to-20-year threat projections of cruise missiles, fixed- and rotary-wing

1
    The Future Combat Systems is composed of a family of advanced, networked, air- and ground-based
    sustainment systems that will include manned and unmanned platforms. The Future Combat Systems
    will operate as a system of systems that will network with existing capabilities and those developed to
    meet the needs of the Brigade Combat Team.
2
    The Brigade Combat Team, beginning in 2008, will consist of three combined arms battalions and their
    attached support and fire units. The Army plans for the MMR to serve as the Brigade Combat Team
    radar.

                                                        6
     aircraft, and unmanned aerial vehicles. The G/ATOR program, with MRRS, will
     develop capabilities for assisting in countering and eliminating those threats.

     In the “Marine Tactical Command and Control System (1992-2010) System
     Threat Assessment Report [the System Threat Assessment],” December 16, 1992,
     the Marine Corps evaluated current and projected threats to the Marine Tactical
     Command and Control System. The System Threat Assessment was still relevant
     because it also addresses existing threats identified in the Threat Environment
     Description that specifically relate to the G/ATOR mission. The G/ATOR radars
     directly support the Marine Tactical Command and Control System through the
     Marine Air Traffic Control Detachment and the Tactical Air Operations Center.

     The System Threat Assessment identified 11 threats to the Marine Tactical
     Command and Control System, including: air strikes, guided missiles and rockets,
     artillery and mortars, mines, chemical and biological weapons, electronic warfare,
     nuclear weapons, directed energy weapons, small arms and crew-served weapons,
     computer threats, and anti-radiation homing weapons. The MRRS Operational
     Requirements Document and GWLR Capabilities Development Document
     identified three of those threats that the G/ATOR will counter: air strikes, guided
     missiles and rockets, and artillery and mortars.

     The G/ATOR program, with MRRS, will assist in countering and eliminating the
     threat from fixed- and rotary-wing aircraft. The System Threat Assessment
     identified fixed- and rotary-wing aircraft as existing threats to the Marine Air
     Ground Task Force. It stated that those aircraft could be armed with aircraft
     cannon and carry free-fall bombs, cluster bombs, rockets, and guided munitions.

     Marine Corps Urgent Need. The Marine Corps did adequately define the urgent
     need for the MRRS. In the “Mission Need Statement [MNS] for Multi-Role
     Radar,” March 27, 1996, the Marine Corps identified the deficiencies in existing
     capabilities and opportunities to provide new capabilities. The G/ATOR will
     address the deficiencies and provide new capabilities in FY 2011.

     The MNS states that the MRRS will provide radar coverage to the Marine Air
     Command and Control System to maintain battlefield situational awareness,
     exercise command and control, and engage hostile threats. The MRRS
     requirements correspond to capability gaps in the Marine Air Ground Task
     Force’s ability to detect, track, and positively identify fixed- and rotary-wing
     aircraft and cruise missiles as outlined in the Marine Corps Mission Area
     Analyses 32 and 35, both dated August 26, 1994. The Military Services conduct
     mission area analyses to identify operational requirements and deficiencies across
     a broad range of functional areas.


Analysis of Alternatives
     Allegation 2. The complainant alleged that the Army and the Marine Corps did
     not perform an adequate AoA for the radars, to include an assessment of:

            •   current radar systems,

                                          7
       •   upgrades to current radar systems, and

       •   planned radar systems of the other Service that contained nearly
           identical performance requirements.

Audit Results. We did not substantiate the allegation. The Army DCD had not
developed an AoA because the MMR was so early in the JCIDS process that it
was not yet required. The Marine Corps performed an adequate analysis of
current radar systems and upgrades to existing fielded systems to support
developing the MRRS as part of the G/ATOR program. The Marine Corps did
not include the Army MMR in the “Multi-Role Radar System Analysis of
Alternatives,” September 16, 2002, because the Army had not yet validated a
system requirement for the MMR.

Army Analysis of Alternatives. DoD Instruction 5000.2, “Operation of the
Defense Acquisition System,” May 12, 2003, states that the milestone authority
approves the plan for conducting an AoA at the concept decision point of the
acquisition process. In the case of the MMR, the program sponsor was taking
actions to comply with Chairman of the Joint Chiefs of Staff Instruction 3170.01E
requirements that are due before the concept decision. In that respect, the draft
FSA that the program sponsor prepared did examine numerous alternatives to
close the identified capability gaps. In addition, the Army hired an independent
contractor to study the potential costs and benefits of various radar concepts.

      Draft Functional Solutions Analysis. The program sponsor drafted an
FSA using the results of three sequential efforts:

       •   performing an analysis of doctrine, organization, training, material,
           leadership and education, personnel, and facilities to determine
           whether non-material solutions could fill the gaps;

       •   developing ideas for material approaches; and

       •   developing an analysis for material approaches (AMA) to recommend
           the most feasible approaches to close the gaps.

In the AMA, the program sponsor evaluated the feasibility of three options for
material approaches.

       •   The first option included an evaluation of 13 domestic radar systems
           for potential upgrades to meet the MMR capability requirements.
           These systems included air surveillance and air defense radars,
           counter-battery radars, air traffic control radars, and the G/ATOR. Of
           the two most suitable solutions, one would require modifications to the
           radar equating to developing a new system without achieving all of the
           MMR requirements. The other solution, the Marine Corps G/ATOR,
           offered at least twice the range, but required more manpower; was less
           mobile and transportable; and was projected to cost more than twice
           that of the MMR capability.



                                     8
                   •   The second option included an evaluation of eight foreign ground-
                       based radar systems to meet the MMR capability requirements. These
                       systems included multi-mission radars and counter-battery radars.
                       Only two of the eight radars had the potential to meet MMR
                       requirements. The first radar would provide improved performance,
                       but would require expensive reductions in size and weight to meet
                       Army C-130 deployability requirements. Further discussion of the
                       C-130 deployability requirements is included under “Deployability” in
                       Allegation 3. The other radar met the Army C-130 deployment
                       requirements, but would require expensive upgrades to address
                       considerable capability shortfalls.

                   •   The third option was an evaluation of the development of a new
                       ground-based radar system. The program sponsor based this option on
                       the results of an MMR science and technology objective
                       demonstration initiated in 2002 to show the feasibility of developing
                       the MMR. The demonstration addressed radar requirements for the air
                       surveillance, air defense, counter-battery, and air traffic control
                       missions. The radar in the demonstration exceeded the performance
                       capabilities of the radars in options one and two. For example, the
                       radar developed for the MMR science and technology objective
                       demonstration had double the range of the Army counter-battery radar
                       and the capability to track 10 times more targets than the Army
                       counter-battery and air surveillance radars.

                   Independent Radar Review. The Army independent contractor prepared
           its study, “Analysis of Battlefield Radars for the Future Force Unit of Action,”3
           on February 25, 2004. The contractor studied the potential costs and benefits of
           various radar concepts. In this analysis, the contractor included the following
           alternative radar concepts for the Brigade Combat Team:

                   •   the MMR developed under the science and technology objective
                       demonstration;

                   •   a counter-battery radar and the MMR developed under the science and
                       technology objective demonstration;

                   •   an air surveillance and air defense radar, and a counter-battery radar;

                   •   the Marine Corps G/ATOR; and

                   •   an air surveillance and air defense radar, and a foreign counter-battery
                       radar.

           In the study, the contractor observed that the MMR developed under the science
           and technology objective demonstration detected air targets at greater ranges than
           the existing air surveillance and air defense radars, but not at greater ranges than
           the G/ATOR. Further, the contractor concluded that the MMR science

3
    The Future Force Unit of Action has been changed to the Brigade Combat Team.

                                                    9
           and technology objective demonstration and the G/ATOR in combination would
           have greater reliability and be easier to maintain than the fielded air surveillance
           and air defense radars.

           Marine Corps Analysis of Alternatives. The Marine Corps study team
           performed an adequate AoA that addressed existing radar systems and upgrades
           to fielded systems. The Marine Corps used the AoA to determine the best
           material solution to satisfy the Marine Corps operational requirements for a
           lightweight, highly mobile, three-dimensional radar. The study team identified
           and compared four alternative material solutions to satisfy operational
           requirements: baseline radar systems, a non-developmental item, and s-band and
           x-band MRRS.4

                   Baseline Radar Systems. The baseline alternative included two legacy
           systems: an air surveillance and air defense radar. In addition, the baseline
           alternative also included a developmental air traffic control radar. The Marine
           Corps expected that the air traffic control radar would be developed before
           introducing the MRRS, and therefore identified it as legacy system for the
           baseline alternative.

                    Non-Developmental Items. The non-developmental item alternative
           included upgrades to two fielded radar systems and one radar system in
           development. Specifically, this alternative included pre-planned product
           improvements to a fielded air surveillance and air defense radar for the short-
           range air defense cueing mission. It also included the air surveillance radar from
           the baseline alternative, but with a proposed upgrade for increased operational
           reliability. This alternative also contained the air traffic control radar in
           development from the baseline radar alternative.

                   S-Band and X-Band MRRS. The s-band and x-band MRRS alternatives
           were the material development of new radar systems. The AoA stated that the
           new radar systems could perform all three of the required MRRS missions.
           Therefore, the new radar systems represented the capabilities proposed by various
           MRRS science and technology objective demonstration competitors for each of
           the frequency bands.

           The AoA study team used a value model with 51 value attributes to evaluate the
           operational effectiveness and suitability of the 4 alternative solutions and to
           conduct a sensitivity analysis of each alternative. Stakeholders participating in
           the conduct of the AoA assigned a relative importance weight to each of the value
           attributes. Using the value model, the study team determined a single overall
           utility or value score for each alternative.

           The s-band and x-band MRRS alternatives had value scores that were
           approximately two times higher than that of the baseline radar systems and non-
           developmental item alternatives and scored the same or better than the other
           alternatives on almost every value attribute. The attributes where the s-band and

4
    The s-band and x-band represent different radar bandwidths. The s-band operates at a lower bandwidth,
    providing a greater range of detection and operating better in inclement weather. The x-band operates at
    a higher bandwidth, providing more precision in identifying specific targets.

                                                      10
     x-band scored higher included transportability, target detection capability, and
     mean-time-to-repair. In the area of transportability, for example, the non-
     developmental item alternatives required more vehicles to transport the radars in
     comparison to the s-band and x-band radar alternatives because it consisted of
     three radar systems rather than one radar system for the s-band and the x-band
     radar alternatives. The s-band alternative outperformed the x-band alternative in
     general areas of detection range, detection altitude, and reliability. However, the
     x-band countered these attributes with higher performance in classifying threats
     and tracking targets. This resulted in differences between the value scores of the
     s-band and x-band MRRS alternatives of less then one percent. The Marine
     Corps has not yet selected which radar type will be used to meet the G/ATOR
     requirements. The Marine Corps will make the radar type determination at
     contract award for the G/ATOR.


Combat Effectiveness and Suitability
     Allegation 3. The complainant alleged that the Army and the Marine Corps did
     not adequately consider combat effectiveness and suitability factors for new radar
     systems. Specifically, the Services required the MMR and the MRRS to have
     liquid cooling, making them susceptible to failures from minor combat damage.

     Audit Results. We did not substantiate the allegation. The Army DCD did
     consider combat effectiveness and suitability factors for the MMR in assessing all
     potential radar designs. Further, the Marine Corps considered the combat
     effectiveness and suitability factors for the MRRS and the GWLR.

     Army Consideration of Combat Effectiveness and Suitability Factors. The
     Army considered combat effectiveness and suitability factors in the draft ICD for
     the MMR, as well as in the MMR developed for the science and technology
     objective demonstration. The draft ICD identified the required capabilities that
     would enable the Brigade Combat Team to achieve offensive, defensive, stability,
     and support operations in any terrain and environmental conditions against the
     full spectrum of aerial and fire support threats. The draft ICD for MMR
     contained combat effectiveness and suitability requirements for deployability,
     agility and versatility, maneuverability and mobility, survivability, and
     sustainability.

             Deployability. The MMR must have a level of deployability
     commensurate with that of the Brigade Combat Team. Specifically, the MMR
     must have the ability to be moved with its essential combat load by a C-130
     profile aircraft in accordance with the Future Combat Systems operational
     requirements document.

             Agility and Versatility. The MMR must be a multi-functional, single,
     highly versatile radar capable of supporting the air surveillance, air defense,
     counter-battery, and air traffic control missions, while providing intelligence
     surveillance and reconnaissance data.



                                          11
       Maneuverability and Mobility. The MMR must have mobility
commensurate with the Brigade Combat Team. Specifically, the MMR must be
capable of traveling at off-road tactical speeds of 50 kilometers per hour and
hard-surface road speeds of 90 kilometers per hour.

        Survivability. The MMR must have a level of survivability that allows
operations with the Future Combat Systems. To accomplish this, the MMR
solution must be:

       •   capable of rapid acceleration survivability dashes;

       •   able to operate in biological, chemical, radiological, and nuclear
           environments without degrading radar performance;

       •   hardened against directed-energy, high-power microwave, and
           thermobaric weapons;

       •   able to survive an electromagnetic pulse;

       •   resistant to electronic tampering, electronic attack, and anti-radiation
           missile engagement; and

       •   able to reduce the probability of detection, intercept, templating, and
           targeting by hostile systems.

        Sustainability. The MMR will have sustainability commensurate with
the Future Combat Systems. The MMR must provide reliability and availability,
reduced maintenance costs, built-in test equipment capable of accurately locating
faults and reporting the data failure, and compatibility with the Army two-level
maintenance system.

For the MMR developed through the science and technology objective
demonstration, the Director, DCD required the contractor not to use a liquid
cooling system because an earlier liquid-cooled radar consistently had
maintenance problems. Accordingly, for the MMR demonstration the contractor
used an air-cooled system.

Marine Corps Consideration of Combat Effectiveness and Suitability
Factors. The Marine Corps evaluated combat effectiveness and suitability
factors of potential MRRS alternatives in the AoA and established operational
and combat suitability key performance parameters in requirements documents
for the MRRS and GWLR. Also, in the request for proposal for G/ATOR, the
Marine Corps required contractors to consider the logistical burden of the cooling
system.

        Analysis of Alternatives. As discussed in the audit response to
Allegation 2, the Marine Corps study team used a value model with 51 weighted
attributes to evaluate the operational effectiveness and suitability factors of 4
MRRS alternatives in the AoA. Suitability attributes of the potential alternatives



                                     12
    evaluated included electronic protection and electronic countermeasure features,
    update rates, number and types of vehicles, self-survey and automatic leveling
    capability, set-up and breakdown, and the mean-time-to-repair.

            Operational Requirements Documents. The operational requirements
    documents for the MRRS and GWLR contained numerous attributes and key
    performance parameters that addressed the operational and combat suitability
    requirements for the G/ATOR radar system. On July 20, 2004, the JROC
    validated the key performance parameters in the MRRS operational requirements
    document for mobility, deployability, and transportability. A key performance
    parameter required that the radar system be transportable and deployable by
    Marine Air Control Group assets and be reconfigurable from transport to full
    operational mode within 60 minutes by no more than four Marines. In addition,
    the key performance parameter required that the MRRS be internally
    transportable by a C-130 aircraft and be capable of external lift by helicopter.

    On June 1, 2005, the JROC also validated the key performance parameters in the
    GWLR capabilities development document for the GWLR to be able to drive on
    and drive off a C-130 aircraft. In addition, the MRRS operational requirements
    document and GWLR capabilities development document required that the radars
    have anti-tamper and technology protection, data integrity, operational
    availability, remote operation, digital and electronic displays, load and unload
    without a material handler, safe operation, and embedded simulation.

            Ground/Air Task Oriented Radar Performance Specification. In
    May 2006, the Marine Corps Systems Command issued for Increment I of the
    G/ATOR program, which includes MRRS, an amended request for proposal for
    the system development and demonstration phase of the acquisition process. In
    the performance specification attached to the amended request for proposal, the
    Marine Corps stated that the design of the cooling system for the radar should
    consider the logistical burden on the operating forces. It also stated that the
    design of the G/ATOR should not involve the use of specialized coolant,
    refrigerant, skill sets, and equipment to operate or maintain the radar in a combat
    zone or field environment. The performance specification, however, did not
    require contractors to use a particular type of cooling system or preclude the use
    of a liquid cooling system.


Improper Personnel Actions
    Allegation 4. The complainant alleged that Senior Army and Marine Corps
    personnel threatened retaliation, reprimand, and loss of promotion opportunity for
    those wanting to discuss alternative means for meeting radar requirements.

    Audit Results. We did not substantiate the allegations. As discussed under the
    audit results for Allegation 2, senior Army and Marine Corps management,
    including the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) and the Assistant Secretary of the Navy (Research, Development,
    and Acquisition) had actively considered alternative means for meeting radar
    requirements. Further, we found no evidence that senior management had

                                         13
    threatened the employees developing requirements for the MMR and the MRRS.
    In making this determination, we contacted senior managers, employees, the
    civilian personnel and advisory center; and the equal employment opportunity
    office at Fort Bliss, Texas; as well as senior managers, employees, the human
    resource office, and the equal employment opportunity office at the Marine Corps
    Systems Command, Quantico, Virginia.


Army and Navy Coordination on Radar Requirements
    In April 2005, the Assistant Secretary of the Navy (Research, Development, and
    Acquisition) solicited the interest and support of the Army for the G/ATOR
    Program. The Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) responded that his staff will continue to actively participate in the
    Army-Marine Corps Board to merge their multiple-mission radar requirements, to
    form an agreement to combine technologies, and to establish a joint system. In
    addition, the Assistant Secretary of the Army stated that he would consider
    participating in a joint effort when it was feasible for one program to meet the
    radar priorities and requirements for both Services.




                                       14
Appendix A. Scope and Methodology
    We evaluated the adequacy of the processes the Army and the Marine Corps used
    to generate requirements for the two new radar systems. We reviewed MMR and
    MRRS requirements documents, budget, and threat documents dated from
    March 1996 through September 2006. We interviewed personnel from the Office
    of the Joint Chiefs of Staff, the Army DCD, the Army Intelligence and
    Information Warfare Directorate, and the Marine Corps Systems Command to
    identify the processes used to generate requirements and to obtain requirement,
    threat, and background documentation.

    We performed this audit from March 2006 through October 2006 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. Two electrical engineers and one computer
    engineer from the Electronics Engineering and Software Engineering Branches,
    Technical Assessment Directorate, Office of Deputy Inspector General for Policy
    and Oversight, Department of Defense Office of Inspector General assisted in the
    audit. The engineers assisted the audit team by determining whether the
    requirements for the MMR and the G/ATOR were similar enough to develop a
    joint radar system rather than two separate radar programs.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Weapons Systems Acquisition high-risk area.


Prior Coverage
    No prior coverage has been conducted on the acquisition of the Army Multi-
    Mission Radar or on the Marine Corps Multi-Role Radar System during the
    last 5 years.




                                        15
Appendix B. DoD Requirements Process for
            Weapon Systems
    The following paragraphs describe the top-down capabilities identification
    methodology that DoD uses within the JCIDS process to assess military
    capability needs and to support starting the Defense acquisition management
    process. The paragraphs also provide a brief overview of the Defense acquisition
    management process.


Top-Down Capabilities Identification Methodology
    The Chairman of the Joint Chiefs of Staff Instruction 3170.01E, “Joint
    Capabilities Integration and Development System,” May 11, 2005, defines the
    process DoD uses to identify, assess, and prioritize joint military capability needs.
    The JCIDS process begins with the top-down capabilities identification
    methodology, which occurs before the start of the Defense acquisition
    management process. The top-down capabilities identification methodology is a
    capabilities-based assessment and consists of a structured, four-step process that
    draws on the expertise of all Government agencies to identify improvements to
    current and new warfighting capabilities. This process allows the Chairman of
    the Joint Chiefs of Staff, with the assistance of the JROC, to assess and provide
    advice regarding military capability needs for Defense acquisition programs. The
    four sequential steps include the Functional Area Analysis (FAA), the Functional
    Needs Analysis (FNA), the Functional Solution Analysis (FSA), and the Post
    Independent Analysis (PIA). The sponsoring office within a Military Department
    or DoD agency completes the first three steps, while an independent group
    completes the PIA.

    Functional Area Analysis. The FAA identifies the operational tasks, conditions,
    and standards needed for defining military objectives, assessing capabilities and
    attributes, and developing integrated architectures. The operational tasks in the
    FAA allow the Defense Intelligence Agency to produce an Initial Threat Warning
    Assessment, which identifies adversarial threats affecting an identified capability.

    Functional Needs Analysis. The FNA assesses the ability of existing and
    programmed joint capabilities to accomplish the operational tasks developed in
    the FAA. It also evaluates the full range of operating conditions, designates
    standards identified by the FAA, and further defines the integrated architectures.
    Using the tasks identified in the FAA, the FNA also produces a list of capability
    gaps requiring solutions, describes key capability attributes to resolve those
    capability gaps, and develops measures of effectiveness. Finally, the FNA uses
    the measures of effectiveness to evaluate how well existing or programmed
    capabilities support the development of key performance parameters.

    Functional Solutions Analysis. The FSA is an operational-based joint
    assessment that solves one or more of the capability gaps identified in the FNA.
    The results of the FSA influence the future direction DoD takes on integrated

                                         16
    architectures and provides input to capability roadmaps. Capability roadmaps are
    plans DoD develops using integrated architectures. DoD uses capability
    roadmaps to conduct capability assessments, guide system development, and
    define investment plans. The FSA also contains the Analysis of Material
    Approaches (AMA). The AMA determines which approach or combination of
    material approaches best provides the desired capabilities, determines how the
    approaches align with DoD integrated architectures and capabilities, and
    identifies potential changes to integrated architectures.

    Post Independent Analysis. An independent team prepares the PIA to assess the
    results of the FSA and its AMA to ensure that the list of potential capability
    approaches are complete. The independent team then compiles the results of the
    PIA into an appropriate recommendation to the sponsoring office. The sponsor
    then uses the results of the PIA, as well as the results of the FAA, FNA, and FSA,
    to prepare the ICD and a plan for conducting an AoA. The ICD and the AoA plan
    are required to start the Defense acquisition management process.


Defense Acquisition Management Process
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003, establishes a simplified and flexible Defense acquisition management
    process. The Defense acquisition management process is a four-phase process for
    translating mission needs and technology opportunities (based on approved
    mission needs and requirements) into stable, affordable, and well-managed
    acquisition programs. The four phases include concept refinement, technology
    development, system development and demonstration, and production and
    deployment. The program manager and the milestone decision authority are
    required to structure a tailored, responsive, and innovative program. Progress
    through the acquisition life cycle depends on obtaining sufficient knowledge to
    continue to the next stage of development.

    Concept Refinement Phase. The concept refinement phase, which begins with
    the concept decision, is the first phase in the Defense acquisition management
    process. Entrance into this phase depends upon having completed the JCIDS top-
    down capabilities identification methodology, having an approved ICD, and a
    plan for conducting an AoA. The ICD describes capability gaps that exist in joint
    warfighting functions and identifies potential material approaches to addressing
    those gaps. The AoA assesses the critical technologies associated with
    technology maturity, technical risk, and other concepts to achieve the best
    possible system solution. During the concept refinement phase, the sponsoring
    office refines the initial concept and develops a technology development strategy.
    The concept refinement phase ends at acquisition Milestone A, the technology
    development decision, when the milestone decision authority approves the
    preferred solution resulting from the AoA and approves the associated technology
    development strategy.

    Technology Development Phase. The technology development phase is the
    second phase in the Defense acquisition management process and begins at the
    acquisition Milestone A decision. During this phase, the sponsoring office

                                        17
reduces technology risk and determines the set of technologies to be integrated
into a full system. In addition, the sponsoring office prepares a capability
development document to support program initiation, refine the integrated
architecture, and clarify how the program will lead to joint warfighting capability.
The capability development document builds on the ICD and provides key and
detailed performance parameters necessary to design the proposed system. The
project exits technology development when an affordable increment of militarily
useful capability has been identified, the technology for that increment has been
demonstrated in a relevant environment, and the system can be developed for
production within a short time frame. Acquisition Milestone B, the system
development and demonstration decision, follows the completion of the
technology development phase.

Final Two Phases of the Defense Acquisition Management Process. The
system development and demonstration phase is the third phase in the Defense
acquisition management process and begins at the Acquisition Milestone B
decision. By the Acquisition Milestone B decision, the program manager is
assigned and the milestone decision authority formally establishes an acquisition
strategy. The milestone decision authority also approves the exit criteria the
program manager must achieve to go into the fourth phase of the acquisition
process, production and deployment. The program manager then takes the system
through low-rate initial production and, finally, full-rate production. During full-
rate production, the program manager delivers the system to the warfighter.




                                     18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Commanding General, U.S. Army Training and Doctrine Command
Assistant Secretary of the Army (Acquisition Logistics and Technology)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research Development and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Marine Corps
Commanding General, Marine Corps System Command

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Harold C. James
Andrew D. Greene
Nathan R. Witter
Breon E. Dehoux
Douglas W. Slaughter
Caryn M. Chambers
Jaime A. Bobbio
Wei K. Chang
Menh Q. Tran
Meredith H. Johnson
